           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       SINGLE AUDIT FOR THE
       STATE OF NEW MEXICO
     DEPARTMENT OF EDUCATION
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2000

   March 2002      A-77-02-00011




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                              ~\. SECu
                                                         ~CJ      :'P..
                                                         5]UPI ~~
                                                           '/'USA
                                                         \~     1II1II1~~
                                                               ;YIS~"

                                         SOCIAL                 SECURITY
                                         Office ot the        Inspector  (,jeneral

MEMORAW~             2002
                                                                                            Refer To:
           Ellen Baese
To:        Director
           Management Analysis and Audit Program Support Staff

           Assistant Inspector General
            for Audit

Subject:Single Audit of the State of New Mexico,              Department     of Education   for the Fiscal Year
           Ended June 30, 2000 (A-77-02-00011)

           This report presents the Social Security Administration's (SSA) portion of the single
           audit of the State of New Mexico, Department of Education (DOE), for the Fiscal Year
           ended June 30,2000.       Meyners & Company, LLC, Certified Public Accountants,
           performed the audit. Results of the desk review conducted by the United States
           Department of Education (USDOE) have not been received. We will notify you when
           the  results are received if USDOE determines the audit did not meet , Federal
           requirements.


           The New Mexico Disability Determination Services (DDS) performs disability
           determinations under SSA's Disability Insurance (Dl) and Supplemental Security
           Income (SSI) programs in accordance with Federal regulations. The DDS is reimbursed
           for 100 percent of allowable costs. The New Mexico Division of Vocational
           Rehabilitation (DVR) within the DOE is the New Mexico DDS's parent agency.

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. 88A's Dl and
           881 programs are identified by CFDA number 96. 88A is responsible for resolving
           single audit findings reported under this CFDA number.

           The single audit reported the following findings (see Appendix A)

              The DVR/DDS accounting system did not allow reconciliation of DDS encumbrances
              and related expenditures with the States' accounting system. The corrective action
              plan indicates that DVR is making modifications to the accounting system so that a
              monthly reconciliation can be performed.

              A disaster recovery plan had not been designed or tested for the new accounting
              system. The corrective action plan indicates that a contract was implemented to
              assist in developing a disaster recovery plan.
Page 2 -Ellen      Baese


We recommend         that SSA ensure:

1.   DDS    did not claim    unallowable     expenditures        as a result      of invalid   encumbrances.


2. Appropriate modifications were made to the D\;JR/DDS accounting system to allow
   for reconciliation of DDS encumbrances and related expenditures, and monitoring of
   DDS cash balances.

3.   A disaster   recovery    plan   was   developed,       tested,   and   implemented.


The single audit also disclosed that application of consistent internal control procedures
at the State failed as a result of continued vacancies, lack of experienced accounting
personnel, and the decrease in authorized positions in the Finance department.
Although this finding was not specifically identified to SSA, it may impact DDS
operations. l am bringing this matter to your attention as it represents potentially
serious service delivery and financial control problems for the Agency (see Appendix B),

Please send copies of the final Audit Clearance Document to Mark Bailey in
Kansas City and Paul Wood in Baltimore. If you have questions contact Mark Bailey
at (816) 936-5591.



                                                          ~Mi.    ~~         ~1
                                                        Steven    L. schaeIfr




Attachments
                                                                                                Appendix A
                                                                                                Page 1 of 2

                                                                           STATE OF NEW MEXICO
                                                                      DEPARTMENT OF EDUCATION

                                               Schedule of Findings and Questioned Costs – continued




00-1    SDE - PERSONNEL MANAGEMENT -continued

Due to staff turnover over the past year, staff has had to take up additional duties. As a result, with the
additional duties some tasks were not completed. With the position responsible for Adult Basic
Education currently filled, the spreadsheets will be reconciled monthly to ensure that all expenditures
and receipts for the month are posted.

00-2 DVR/DDS - INFORMATION SYSTEMS MANAGEMENT

Condition: The transition to a new DVR/DDS accounting system and a new case management system
resulted in increased responsibilities for certain personnel and the failure to include certain critical
information in the new accounting system. Specifically, we noted the following:

       The new accounting system was not properly designed to ensure that encumbrances could be
       monitored and reconciled with DFA. Additionally, the new accounting system did not include
       fields to capture delivery dates to facilitate the identification of accounts payable at year end.

       A disaster recovery plan has not been designed or tested for the new accounting system.

Cause: The above items primarily resulted from the transition to a new DVR/DDS accounting system
and a new case management system, which increased responsibilities for certain personnel and failed to
include certain critical information in the new accounting system.

Criteria: Valid encumbrances should be maintained and reconciled to DFA at least on a monthly basis.
It is important that each agency maintain an accurate listing of valid encumbrances to monitor
expenditures against the authorized budget.

Effect: The implementation of the new accounting system and client management system resulted in
certain issues that affected DVR/DDS operations. For example, it became necessary to place primary
reliance on DFA for the June 30, 2000, listing of valid encumbrances. However, because DFA does not
review the listing for invalid encumbrances, reliance on DFA information could result in overstated
budgetary expenditures.
                                                                                                    Appendix A
                                                                                                    Page 2 of 2

                                                                              STATE OE NEW MEXICO
                                                                          DEPARTMENT OF EDUCATION

                                                    Schedule of Findings and Questioned Costs – continued




     00-2 DVR/DDS - INFORMATION SYSTEMS MANAGEMENT - continued

     Failure to develop and test a disaster recovery plan could result in serious consequences to the
     Department if critical systems were to fail without adequate contingency plans.

     Recommendation: DVR should make the appropriate modifications to the accounting system and
     allocate the resources necessary to maintain and reconcile outstanding encumbrances and other account
     balances to DFA. DVR should develop and test a disaster recovery plan.

     Client Response: DVR/DDS plans to have an encumbrances report developed in the AIMS financial
     management system during the 2000/2001 fiscal year. Once this report is available, monthly
     encumbrance reconciliation will be instituted.

     DVR agrees with the need for the development, implementation and testing of a disaster recovery plan.
     In May 2000, a contract was implemented to assist in assessing DVR's network and applications and to
     assist in the development of a disaster recovery plan. Activities to develop this plan are currently in
     progress and should be completed before June 30, 2001.

C.    FINDINGS AND QUESTIONED COSTS - MAJOR FEDERAL AWARD PROGRAM
     AUDIT

     U.S. DEPARTMENT OF EDUCATION
     Title I - CFDA No. 84.010A
     Technology Literacy Challenge - CFDA No. 84.318
     Class Size Reduction Grant - CFDA No. 84.380

     00-3 SDE - PERSONNEL MANAGEMENT

     Condition: Application of consistent internal control procedures at SDE has failed during the last fiscal
     year as a result of continued vacancies, lack of experienced accounting personnel, and the decrease in
     authorized positions in the Finance Department. The Department has managed these staff shortages by
     establishing priorities to ensure that critical activities occurred. In particular, the following lapses in
     internal control procedures were noted:

            One financial status grant report for Title I that was submitted to the federal government and
            selected during our audit contained incorrect data. The Department had prepared the report
            using non-current data in order to meet the Federal Government's due date. Management
            subsequently submitted a final report containing the correct data. This finding resulted in no
            questioned costs.
                                                                         Appendix B
                                                                         Page 1 of 4
                                                              STATE OF NEW MEXICO
                                                         DEPARTMENT OF EDUCATION

                                    Schedule of Findings and Questioned Costs - continued




B.   FINDINGS – FINANCIAL STATEMENTS AUDIT

     REPORTABLE CONDITIONS:

     00-1 SDE - PERSONNEL MANAGEMENT

     Condition: Application of consistent internal control procedures at SDE has failed during
     the last fiscal year as a result of continued vacancies, lack of experienced accounting
     personnel, and the decrease in authorized positions in the Finance Department. The
     Department has managed these staff shortages by establishing priorities to ensure that
     critical activities occurred. In particular, the following lapses in internal control
     procedures were noted:

            One financial status grant report for Title 1 that was submitted to the federal
            government and selected during our audit contained incorrect data. The
            Department had prepared the report using non-current data in order to meet the
            federal government's due date. Management subsequently submitted a final
            report containing the correct data.

            Contingency plans for the information systems have not been updated since 1997
            and the existing plan has not been tested for several years.

            The Department's internal system for tracking leave balances failed during the
            fiscal year ended June 30, 2000. As a result, the Department was not able to
            reconcile internal leave balances to balances maintained by the Department of
            Finance and Administration.

            Two federal drawdowns were recorded in the incorrect month. Although the
            errors in recording deposits were identified as a part of the Department of Finance
            and Administration reconciliation, the adjustments were not recorded in the
            general ledger.

            Reconciliations of federal drawdowns to payments made to local school districts
            for the Class Size Reduction (CSR) grant were not agreed to the general ledger.

            Reconciliations of grant activity recorded in the manual ledgers for the Adult
            Basic Education program to the general ledger were not consistently performed
            during the year.
                                                                      Appendix B
                                                                      Page 2 of 4
                                                           STATE OF NEW MEXICO
                                                      DEPARTMENT OF EDUCATION

                                Schedule of Findings and Questioned Costs – continued




00-1 SDE - PERSONNEL MANAGEMENT - continued

Cause: In the past few years, the Department has incurred a significant turnover of
employees due to retirement and normal attrition. Because of budget restraints, lack of
qualified applicants, and the time involved in hiring through state personnel, the
Department has not been able to adequately replace those who have left. As a result, the
employees who remain are being given tasks in addition to their normal responsibilities.
These additional responsibilities can result in the failure to perform certain Department
functions that are considered less critical. Inadequate training for the additional
responsibilities that are being absorbed has also contributed to the failure to comply with
standard Department procedures.

Criteria: The Department is responsible for administering one of the largest budgets in
state government. It is important that adequate resources be allocated to properly
administer these monies that flow through the Department.

Effect: If Department personnel are not given the resources required to adequately
perform their responsibilities, or are not utilized in the most efficient means possible; the
Department's procedures may become ineffective. In addition, there is increased
potential for continued personnel turnover.

If reports are not submitted in a timely manner, or are submitted incorrectly, or if
procedures are not performed in accordance with rules and regulations, the Department
risks corrective action by the grantor agencies.

Recommendation: The Department should consider performing a full internal review of
the current personnel responsibilities. This review should include an analysis of the
adequacy of the current staffing levels, as well as whether the current staffing structure is
being utilized in the most effective manner possible.

Client Response: The person who is responsible for posting to the ledger is still relatively
new to the position; therefore, the administrative ledgers were late in being posted. As a
consequence, the Title I Financial Status Reports did not include the administrative
expenses.

It has been SDE's understanding that the Financial Status Reports must be submitted on
the due dates in accordance with the 34 Code of Federal Regulations (CFR). Once the
final information is available a final Financial Status Report must be submitted with the
complete expenditure data. In order to meet the established deadline, SDE determined
that a pre-final would be submitted without the administrative expenses and a final 269
Report submitted at a later date.
                                                                    Appendix B
                                                                    Page 3 of 4
                                                         STATE OF NEW MEXICO
                                                     DEPARTMENT 0F EDUCATION

                               Schedule of Findings and Questioned Costs – continued




00-1 SDE - PERSONNEL MANAGEMENT -continued

In the future, in accordance with department policies, SDE will make every effort to keep
up with its monthly posting of the administrative ledger.

The Department has hired a consulting firm to develop a contingency plan for the
information systems. The Department expects this to be completed by December 2000.

DFA reports have been used to track and reconcile leave accruals and balances for
individual employees. The reconciliation of SDE's portion of payroll expenditures has
been reconciled by an employee of the SDE's Fiscal Unit. SDE's internal payroll system
was recognized as antiquated. The use of this system was suspended in order to redirect
the Human Resources to respond to other SDE payroll concerns. SDE contacted the
Information System Division (ISD) at the General Services Department (GSD) and we
have since contracted with them to develop a payroll reporting and reconciliation system.
We have been informed that this system will be completed by the end of July 2000. We
are in the process of reviewing GSD's payroll reporting draft reports. Once this project
is complete, SDE will initiate the reconciliation process again. SDE will annually
evaluate software technology to ensure that the payroll system remains current.

Concerning the comment on federal drawdowns, SDE posted a deposit based on a
posting date rather than the actual date received. Another deposit, which should have
been posted in October, was not entered into the general ledger because of missing
information.

Due to staff turnover over the past year, staff has had to take up additional duties
relating to the reconciliations for the Class Size Reduction grant. Consequently, with the
additional duties some tasks were not completed. Reconciliations for this grant will be
performed monthly and reconciled to the general ledger. In addition, review by the unit
supervisor and reporting to the Deputy Director will be done on a monthly basis.
                                                                     Appendix B
                                                                     Page 4 of 4
                                                          STATE OF NEW MEXICO
                                                     DEPARTMENT OF EDUCATION

                               Schedule of Findings and Questioned Costs – continued




00-1 SDE - PERSONNEL MANAGEMENT -continued

Due to staff turnover over the past year, staff has had to take up additional duties. As a
result, with the additional duties some tasks were not completed. With the position
responsible for Adult Basic Education currently filled, the spreadsheets will be
reconciled monthly to ensure that all expenditures and receipts for the month are posted.

00-2 DVR/DDS - INFORMATION SYSTEMS MANAGEMENT

Condition: The transition to a new DVR/DDS accounting system and a new case
management system resulted in increased responsibilities for certain personnel and the
failure to include certain critical information in the new accounting system. Specifically,
we noted the following:

       The new accounting system was not properly designed to ensure that
       encumbrances could be monitored and reconciled with DFA. Additionally, the
       new accounting system did not include fields to capture delivery dates to facilitate
       the identification of accounts payable at year end.

       A disaster recovery plan has not been designed or tested for the new accounting
       system.

Cause: The above items primarily resulted from the transition to a new DVR/DDS
accounting system and a new case management system, which increased responsibilities
for certain personnel and failed to include certain critical information in the new
accounting system.

Criteria: Valid encumbrances should be maintained and reconciled to DFA at least on a
monthly basis. It is important that each agency maintain an accurate listing of valid
encumbrances to monitor expenditures against the authorized budget.

Effect: The implementation of the new accounting system and client management system
resulted in certain issues that affected DVR/DDS operations. For example, it became
necessary to place primary reliance on DFA for the June 30, 2000, listing of valid
encumbrances. However, because DFA does not review the listing for invalid
encumbrances, reliance on DFA information could result in overstated budgetary
expenditures.
                   Overview of the Office of the Inspector General
                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.


                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.


                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.


                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
